CERTIFICATE OF SERVICE
No.TBD
James J. Maksimuk
Petitioner (s)
v.
Connor Sport Court International, Inc.
Respondent(s)
STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) S3.:
Being duly sworn, I depose and say under penalty of perjury :
1. That 1 am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
■2. On the undersigned date. ! served the parties in the above captioned matter with the
Maksimuk Petition for Writ of Certiorari, by mailing three (3) true and correct copies of the
same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Tt
Peter M. De Jonghe
Thorpe North & Western LLP
175 South Main Street
Suite 900
Salt Lake City, UT 84111
801-566-6633
dejonge@tnw.com
Counselfor Connor Sport Court International. Inc.

:‘v

mm

Vv

Dan Abramovich
October 11,2019
SCP Tracking: Maksimuk-38325 6th Street East-Cover White

t

